Case: 20-2984

Document: 20-1

Page: 1

Date Filed: 04/09/2021

April 7, 2021
AMENDED ALD-096
UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT
C.A. No. 20-2984
JAMES E. NOTTINGHAM, Appellant
VS.
LAUREL HARRY, ET AL.
(M.D. Pa. Civ. No. 4-19-cv-00595)
Present:

MCKEE, GREENAWAY, JR. and BIBAS, Circuit Judges
Submitted are:
(1) By the Clerk for possible dismissal due to a jurisdictional defect;
(2)

By the Clerk for possible dismissal under 28 U.S.C. § 1915(e)(2)(B)
or for summary action under 3rd Cir. LAR 27.4 and I.O.P. 10.6;

(3) Appellant’s response to first letter advising of dismissal;
(4) Appellant’s response to second letter advising of dismissal;
(5) Appellant’s first Motion for Default Judgment;
(6) Appellant’s second Motion for Default Judgment;
(7) Appellant’s Motion to Investigate High Crimes and Arrest;
(8)

Appellant’s Motion for Judgment on the Pleadings under Rule 12;

(9)

Appellant’s Motion for Summary Judgment Rule 56; and

(10)

Appellant’s third Motion for Default Judgment
in the above-captioned case.
Respectfully,
Clerk

(Continued)

Case: 20-2984

Document: 20-1

Page: 2

Date Filed: 04/09/2021

JAMES E. NOTTINGHAM, Appellant
VS.
LAUREL HARRY, ET AL.
C.A. No. 20-2984
Page 2

ORDER
The appeal is dismissed for lack of appellate jurisdiction because the notice of
appeal was not timely filed. A notice of appeal in a civil case in which the United States
is not a party must be filed “within 30 days after the judgment or order appealed from is
entered.” Fed. R. App. P. 4(a)(1)(A). This time limit is “mandatory and jurisdictional.”
Bowles v. Russell. 551 U.S. 205, 209 (2007). The District Court entered its judgment
dismissing Nottingham’s complaint on July 6, 2020, and its order denying Nottingham’s
timely motions for reconsideration on August 21, 2020. Nottingham filed his notice of
appeal at the earliest on September 22, 2020, see Fed. R. App. P. 4(c)(1); Houston v.
Lack. 487 U.S. 266, 276 (1988), one day after the expiration of the 30-day period to
appeal the denial of those motions. Nottingham did not seek to extend or reopen the time
to file an appeal pursuant to Federal Rule of Appellate Procedure 4(a)(5) or 4(a)(6) in the
District Court, nor can his notice of appeal or any other document be construed as a
motion under either rule. See Poole v. Family Ct. of New Castle Cntv.. 368 F.3d 263, 268
(3d Cir. 2004). In light of our disposition, we do not reach the question of whether we
should dismiss the appeal under 28 U.S.C. § 1915(e)(2)(B) or take summary action.
Nottingham’s remaining motions are denied as moot.
By the Court,
s/Joseph A. Greenaway. Jr.
Circuit Judge
Dated:
SLC/cc:

April 9, 2021
James E. Nottingham
Sean A. Kirkpatrick, Esq.
RT

or

*

A True Copy: 0 '►rs'.n!'’

Patricia S. Dodszuweii, Clerk
Certified Order Issued in Lieu of Mandate

Case: 20-2984

Document: 20-2

Page: 1

Date Filed: 04/09/2021

OFFICE OF THE CLERK

PATRICIA S. DODSZUWEIT
CLERK

United States Court of Appeals
FOR THE THIRD CIRCUIT
21400 UNITED STATES COURTHOUSE
601 MARKET STREET
PHILADELPHIA, PA 19106-1790

TELEPHONE

215-597-2995

Website: www.ca3.uscourts.gov

April 9, 2021
Sean A. Kirkpatrick
Office of Attorney General of Pennsylvania
Strawberry Square
Harrisburg, PA 17120
James E. Nottingham
Camp Hill SCI
P.O. Box 8837
2500 Lisburn Road
Camp Hill, PA 17001

RE: James Nottingham v. Laurel Harry, et al
Case Number: 20-2984
District Court Case Number: 4-19-cv-00595
ENTRY OF JUDGMENT
Today, April 09, 2021 the Court issued a case dispositive order in the above-captioned matter
which serves as this Court's judgment. Fed. R. App. P. 36.
If you wish to seek review of the Court's decision, you may file a petition for rehearing. The
procedures for filing a petition for rehearing are set forth in Fed. R. App. P. 35 and 40, 3rd Cir.
LAR 35 and 40, and summarized below.
Time for Filing:
14 days after entry of judgment.
45 days after entry of judgment in a civil case if the United States is a party.
Form Limits:
3900 words if produced by a computer, with a certificate of compliance pursuant to Fed. R. App.
P. 32(g).
15 pages if hand or type written.

Case: 20-2984

Document: 20-2

Page: 2/

Date Filed: 04/09/2021

Attachments:
A copy of the panel's opinion and judgment only.
Certificate of service.
<
Certificate of compliance if petition is produced by a computer.
No other attachments are permitted without first obtaining leave from the Court.
Unless the petition specifies that the petition seeks only panel rehearing, the petition will be
construed as requesting both panel and en banc rehearing. Pursuant to Fed. R. App. P. 35(b)(3),
if separate petitions for panel rehearing and rehearing en banc are submitted, they will be treated
as a single document and will be subject to the form limits as set forth in Fed. R. App. P.
35(b)(2). If only panel rehearing is sought, the Court's rules do not provide for the subsequent
filing of a petition for rehearing en banc in the event that the petition seeking only panel
rehearing is denied.
Please consult the Rules of the Supreme Court of the United States regarding the timing and
requirements for filing a petition for writ of certiorari.
Very truly yours,
s/ Patricia S. Dodszuweit
Clerk .
By: s/ Shannon, Case Manager
267-299-4959
cc:

Mr. Peter J. Welsh

r

i

{

l

i
__ __JAMESJ.-NQJJJNGHAM.,Rlaiotiff,_v^JASONCO_OI=gY-^et-al^Defendants.----------- UNITED STATES DISTRICT COURT FOR THF*^ jLE DISTRICT OF PENNSYLVANIA
2020 u.s. Dist. Sexist 17498
/ \
CIVIL ACJJGn NO. 4:19-CV-00595
/
/
ouiy 6, 2020, Decided
/
July 6, 2020, Filed
t.

Editorial Information: Prior History Nottingham v. Harry, 2019 U.S. Dist. LEXIS 136533, 2019 WL 7596893 (M.D. Pa., Aug. 12, 2019)
{2020 U.S. Dist. LEXIS 1}James E. Nottingham, Plaintiff, Prose, Camp
Hill, PA.
Judges: KAROLINE MEHALCHICK, United States Magistrate Judge.
Counsel

Opinion
Opinion by:

KAROLINE MEHALCHICK
Opinion

MEMORANDUM OPINION
Plaintiff James E. Nottingham brings this civil rights action, pursuant to 42 U.S.C. § 1983, asserting
claims against Jason Cooley and Blake Brown ("Defendants"), both troopers with the Pennsylvania '
State Police. (Doc. 1, at 31.1 Nottingham alleges that Cooley and Brown used excessive force in
effectuating Nottingham's arrest. (Doc. 1, at 10-18). Presently before the Court are three motions: (1)
Nottingham's Motion for Summary Judgment; (2) Nottingham's Motion for Default Judgment; and (3)
Defendants'Motion to Dismiss. (Doc. 33; Doc. 39; Doc. 37).
For the reasons that follow, Defendants' Motion to Dismiss shall be granted, rendering Nottingham's
motions moot.
*■
I. Background

r1^

Nottingham's allegations against Defendants Cooley and B’rown arise from an alleged physical
altercation between Nottingham and two of his houseguests after he decided to show them a firearm
he owned. (Doc. 1, at 4-9). After the altercation, Defendants were called to Nottingham's home, where
Nottingham greeted them outside. (Doc. 1, at 10). After being told there were others in the home,
Defendants{2020 U.S. Dist. LEXIS 2} restrained Nottingham and Defendant Cooley entered the
home for one to two minutes. (Doc. 1, at 11). Upon exiting the home, Cooley allegedly "ran down the
driveway, jumped on top of me, his knee implanted into my chest as he punched me a couple of times
as Brown held the cuffs enabling me of any movement." (Doc. 1, at 11). After digging his jagged
thump into Nottingham's wrist, Nottingham "told officer Cooley, my friend was in the woods and a red
dot was on his neck, to get him to stop inflicting excruciating pain on me." (Doc. 1, at 12). Defendants
then transported Nottingham to the Montoursville State Police Station where, while Nottingham was
handcuffed, they both allegedly tackled Nottingham, strangled him until he was unconscious,
attempted to pull his finger nail off of his finger, and applied handcuffs too tightly. (Doc. 1, at 13-18).
1

lyccases

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

^-,/j

o

M

Based on these allegations, this Court determined that Nottingham s.ufficiently-alleged-an-exGessive—
—-force-'c1airrragainstT)efendants_(Doc. 22, at 22). Excessive.force claims arising out of an arrest are
analyzed under^he Fourth Amendment. See Graham v. Connor, 490 U.S. 386, 109 S. Ct. 1865, 104
L. Ed. 2d 443 (1*989). Defendants filed their Motion to Dismiss and Brief in Support on December 19,
2019, with Nottingham filing his'Brief{2020 U.S. Dist. LEXIS 3} in Opposition on January 10, 2020.
(Doc. 37; Doc. 38; Doc. 42).
II. Discussion
A. Legal Standards
Rule 12(b)(6) of the Federal Rules of Civil Procedure authorizes a defendant to move to dismiss for
"failure to state a claim upon which relief can be granted." Fed. R. Civ. P. 12(b)(6). The United States
Court of Appeals for the Third Circuit has noted the evolving standards governing pleading practice in
federal court, stating:
Standards of pleading have been in the forefront of jurisprudence in recent years. Beginning with'
the Supreme Court's opinion in Bell Atl. Corp. v. Twombly, 550 U.S. 544, 127 S. Ct. 1955, 167 L.
Ed. 2d 929 (2007), continuing with our opinion in Phillips [v. Cnty of Allegheny, 515 F.3d 224 (3d
Cir, 2008)] and culminating recently with the Supreme Court's decision in Ashcroft v. Iqbal, 556
U.S. 662, 129 S. Ct. 1937, 173 L. Ed. 2d 868 (2009), pleading standards have seemingly shifted
from simple notice pleading to a more heightened form of pleading, requiring a plaintiff to plead
more than the possibility of relief to survive a motion to dismiss.
Fowler v. UPMC Shadyside, 578 F.3d 203, 209-10 (3d Cir. 2009).
In deciding a Rule 12(b)(6) motion, the court may consider the facts alleged on the face of the
complaint, as well as "documents incorporated into the complaint by reference, and matters of which a
court may take judicial notice." Tellabs, Inc, v. Makor Issues & Rights, Ltd., 551 U.S. 308, 322, 127 S.
Ct. 2499, 168 L. Ed. 2d 179 (2007). In order to state a valid cause of action, a plaintiff must provide
some factual ground for relief which "requires more than labels and conclusions, and a formulaic
recitation of the{2020 U.S. Dist. LEXIS 4} elements of a cause of action will not do." Bell Atlantic
Corp. v. Twombly, 550 U.S. 544, 555, 127 S. Ct. 1955, 167 L. Ed. 2d 929 (2007). A trial court must
assess whether a complaint states facts upon which relief can be granted, and should "begin by
identifying pleadings that, because they are no more than conclusions, are not entitled to the
assumption of truth." Ashcroft v. Iqbal, 556 U.S. 662, 679, 129 S. Ct. 1937, 173. L. Ed. 2d 868 (2009).
"[Tjhreadbare recitals of the elements of a cause of action, supported, by mere conclusory statements,
do not suffice." Iqbal, 556 U.S. at 678. A court "need not credit a complaint's 'bald assertions' or 'legal
. conclusions' when deciding a motion to dismiss." Morse v. Lower Merion Sch. Dist., 132 F.3d 902, 906
(3d Cir. 1997). Additionally, a court need not assume that a plaintiff can prove facts that the plaintiff
has not alleged. Associated Gen. Contractors of Cal. v. California State Council of Carpenters, 459
U.S. 519, 526, 103 S. Ct. 897, 74 L. Ed. 2d 723 (1983). When it comes to the factual grounds,
however, a court must accept as true all allegations in the complaint, and any reasonable inferences
that can be drawn therefrom are to be construed in the light most favorable to the plaintiff. Jordan v.
Fox, Rothschild, O'Brien & Frankel, 20 Fo.3d 1250, 1261 (3d Cir. 1994).
In addition to these pleading rules, a civil complaint must comply with the requirements of Rule 8(a) of
the Federal Rules of Civil Procedure, which defines what a complaint should contain:
(a) A pleading that states a claim for relief must contain (1) a short and plain statement of the
grounds for the court's jurisdiction, unless the court already has jurisdiction and the claim needs
no{2020 U.S. Dist. LEXIS 5} new jurisdictional support; (2) a short and plain statement of the

lyccases
© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

■

+S

claim showing that the pleader is entitled to relief; and (3) a demand for the relief sought, which
may include reliefjnJ:he-alteroativeror-different-tvDes-of-reliefrTtiusr3roro~se~ptaintiffs well-pleaded
complaint must recite factual allegations which are sufficient to raise the plaintiffs claimed right to
relief beyond the level of mere speculation, set forth in a "short and plain" statement of a cause of
action. Indeed, Fed. R. Civ. P. 8(a) requires a "showing that 'the pleader is entitled to relief, in
order to give the defendant fair notice of what the...claim is and the grounds upon which it rests."1
Erickson v. Pardus, 551 U.S. 89, 93-94, 127 S. Ct. 2197, 167 L. Ed. 2d 1081 (2007); Phillips, 515
F.3d at 233 (citing Twombly, 550 U.S. at 545).
With the aforementioned standards in mind, a document filed pro se is "to be liberally construed,"
Estelle v. Gamble, 429 U.S. 97, 106, 97 S. Ct. 285, 50 L. Ed. 2d 251 (1976). A pro se complaint,
"however inartfully pleaded," must be held to "less stringent standards than formal pleadings drafted
by lawyers" and can only be dismissed for failure to state a claim if it appears beyond doubt that the
plaintiff can prove no set of facts in support of his claim which would entitle him to relief. Haines v.
Kerner, 404 U.S. 519, 520-21, 92 S. Ct. 594, 30 L. Ed. 2d 652 (1972). Further, the Third Circuit has
instructed that if a complaint is vulnerable to dismissal for failure{2020 U.S. Dist. LEXIS 6} to state a
claim, the district court must permit a curative amendment, unless an amendment would be
inequitable or futile. Grayson v. Mayview State Hosp., 293 F.3d 103, 108 (3d Cir. 2002).
B. The Statute of Limitations Bars Nottingham's Claims
Defendants now submit that Nottingham did not file his claims within the time afforded by the relevant
statute of limitations, so they should be dismissed. (Doc. 38, at 4-5). Federal courts apply the state
personal injury statute of limitations in § 1983 actions. See Owens v. Okure, 488 U.S. 235, 250, 109
S. Ct. 573, 102 L. Ed. 2d 594 (1989); Wilson v. Garcia, 471 U.S. 261, 276-80, 105 S. Ct. 1938, 85 L.
Ed. 2d 254 (1985). As relevant here, Pennsylvania's statute of limitations for personal injury actions is
two years. 42 Pa. C.S.A. § 5524; Little v. Lycoming Cty., 912 F. Supp. 809, 814 (M.D. Pa. 1996). The
question of when a cause of action accrues, however, is a question of federal law. Sabella v. Troutner,
2006 U.S. Dist. LEXIS 5862, 2006 WL 229053, at *3 (M.D. Pa. 2006) (citing Smith v. Wambaugh, 887
F. Supp. 752, 755 (M.D. Pa. 1995) affd, 87 F.3d 108 (3d Cir. 1996)). "[Ujnder federal law... 'the
limitations period begins to run from the time when the plaintiff knows or has reason to know of the
injury which is the basis of the section 1983 action.'" Montgomery v. De Simone, 159 F.3d 120, 126
(3d Cir. 1998) (quoting Gentyv. Resolution Trust Corp., 937 F.2d 899, 919 (3d Cir. 1991)).
According to Nottingham's Complaint, he and his houseguests arrived at his residence at 12:27 AM on
July 13, 2015. (Doc. 1, at 6). The subsequent altercation and incident with the Defendants occurred
later that same day: July 13, 2015. (Doc. 1, at 7-18). All of Nottingham's alleged injuries were inflicted
on July 13, 2015. (Doc. 1, at 7-18). As such, the limitations{2020 U.S. Dist. LEXIS 7} period began to
run on July 13, 2015. See Montgomery, 159 F.3d at 126.2 Nottingham filed his initial complaint
arising from the injuries inflicted by Defendants on April 5, 2019. (Doc. 1). The time between July 13,
2015, and April 5, 2019, is three years, eight months, and twenty-three days. Because Nottingham
waited more than two years to file this action, Pennsylvania's statute of limitations bars his claims. 42
Pa. C.S.A. § 5524; see Owens, 488 U.S. at 250.3
III. Conclusion
For the foregoing reasons, Defendants' Motion to Dismiss is GRANTED. (Doc. 37). Plaintiffs Motion
for Summary Judgment and his Motion for Default Judgment are DENIED AS MOOT. (Doc. 33; Doc.

39).
An appropriate Order will follow.
Dated: July 6, 2020

lyccases

3

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

■lb'

/s/ Karoline Mehalchick
KAROLINE MEHALCHICK

”

United States Magistrate Judge
Footnotes

1
The Court notes that Nottingham's Proposed Amended Complaint filed on September 16, 2019, has
been dismissed as moot. (Doc. 28, at 4). Nottingham's original Complaint filed ort April 5, 2019,
remains effective. (Doc. 1). On October 3, 2019, all claims were dismissed except those against
Defendants Cooley and Brown. (Doc. 28). As such, this memorandum addresses only Nottingham's
allegations against Cooley and Brown.
2
Nottingham asserts that the limitations period was to begin on September 11, 2018, which is the date
his appeal of his criminal charges was decided. (Doc. 42, at 1) citing (Doc. 38-1, at 2). As discussed
supra, the limitations period began when Nottingham knew or had reason to know of the injury
forming the basis of his Complaint against Defendants Cooley and Brown. See Montgomery, 159 F.3d
at 126.
3
Because Nottingham's claims are barred by the statute of limitations, all remaining motions will be
dismissed as moot.

lyccases

4

© 2021 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the ,
restrictions and terms and conditions of the Matthew Bender Master Agreement.

UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
No. 20-2984
JAMES E. NOTTINGHAM,
Appellant
v.
LAUREL HARRY, ET AL.
On Appeal from the District Court
For the Middle District of Pennsylvania
(D.C. Civ. No. 4-19-cv-00595)
District Judge: Honorable Karoline Mehalchick
SUR PETITION FOR REHEARING
Present: SMITH, ChiefJudge, McKEE, AMBRO, CHAGARES, JORDAN,
HARDIMAN, GREENAWAY, JR., SHWARTZ, KRAUSE, RESTREPO, BIBAS,
PORTER, MATEY, and PHIPPS, Circuit Judges.
The petition for rehearing filed by Appellant in the above-entitled case having
been submitted to the judges who participated in the decision of this Court and to all the
other available circuit judges of the circuit in regular active service, and no judge who
concurred in the decision having asked for rehearing, and a majority of the judges of the
circuit in regular service not having voted for rehearing, the petition for rehearing by the
panel and the Court en banc, is denied.
♦

T

'* .

BY-T-HE-eGU-R-T-

s/ Joseph A. Greenaway, Jr.
Circuit Judge
Dated: May 11, 2021
Tmm/cc: James E. Nottingham
Sean A. Kirkpatrick, Esq.
<
/

Additional material
from this filing is
available in the
Clerk's Office.

